<html>
<title> - MARK-UP OF THE OMNIBUS COMMITTEE FUNDING RESOLUTION, AND OTHER PENDING ITEMS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
MARK-UP OF THE OMNIBUS COMMITTEE FUNDING RESOLUTION, AND OTHER PENDING 
                                 ITEMS
=======================================================================

                                MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 6, 2003

                               __________

      Printed for the use of the Committee on House Administration





                       U. S. GOVERNMENT PRINTING OFFICE
89-054                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           JOHN B. LARSON, Connecticut
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 JUANITA MILLENDER-McDONALD, 
JOHN T. DOOLITTLE, California            California
THOMAS M. REYNOLDS, New York         ROBERT A. BRADY, Pennsylvania

                           Professional Staff

                     Paul Vinovich, Staff Director
                 George Shevin, Minority Staff Director




MARKUP OF OMNIBUS COMMITTEE FUNDING RESOLUTION, AND OTHER PENDING ITEMS

                          TUESDAY, MAY 6, 2003

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 5 p.m., in room 
1334, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Ehlers, Linder, Doolittle, 
Larson, Millender-McDonald and Brady.
    Staff present: Paul Vinovich, Staff Director; Fred Hay, 
Counsel; Channing Nuss, Deputy Staff Director; Jeff Janas, 
Professional Staff Member; George Shevlin, Minority Staff 
director; Matt Pinkus, Minority Professional Staff Member; 
Keith Abouchar, Minority Professional Staff Member; and William 
H. Cable, Minority Special Counsel.
    The Chairman. The meeting will come to order on Congress's 
omnibus committee funding resolution, a separate resolution 
funding the Committee on Homeland security, and finally a 
committee resolution establishing the 108th Congress frank mail 
allocation for committees. The committee is meeting today to 
consider H. Resolution 148, the omnibus resolution providing 
for the expenses of certain committees of the United States 
House of Representatives for the 108th Congress; also we will 
be considering H. Res. 110, a separate resolution authorizing 
funding for the Select Committee on Homeland Security as well 
as House Administration Committee resolution providing frank 
mail allocations to the same committees.
    As everyone is well aware, we have the task this year of 
funding a newly created committee, Homeland Security, that will 
be done in a separate measure due to the fact it is a brand new 
authorization of a committee. In February of this year the 
Chair and Ranking Member of each committee presented a budget 
request to the Committee on House Administration and introduced 
individual resolutions to support their funding requests.
    H. Res. 148, the omnibus primary expense resolution, 
combines all of the individual resolutions into one bill. These 
resolutions, along with the committee resolution setting the 
frank mail allocation, will finally fund committees for the 
108th Congress. The mark is an amendment in the nature of a 
substitute outlining each committee's authorized spending 
levels for 2003 and 2004. Therefore, this is a biennial 
operating budget for these committees for the Chairs and the 
Ranking Members. A separate amendment in the nature of a 
substitute will be offered authorizing funds for the Select 
Committee on Homeland Security, and the Appropriations 
Committee has already authorized the actual spending amount for 
that committee.
    So I am pleased to put before the committee a Chairman's 
mark that can be supported by a majority of Members on both 
sides of the aisle. I feel that both the Chair and Ranking 
Members will agree that this carefully crafted agreement will 
provide sufficient funding for them to carry out the duties and 
responsibilities with which they are charged.
    As we all know, the Select Committee on Homeland Security 
was created at the beginning of this Congress. That committee 
will provide an important oversight function of the newly 
created Homeland Security Department, and ensuring that the 
combined agencies are doing their job we all expect of them 
with regards to protecting our homeland. The Select Committee 
on Homeland Security submitted a budget request of just over 11 
million; however, due to the fact that the Homeland Security 
budget represents a special situation with regard to this 
funding cycle, we have not included them, again, as I mentioned 
earlier, in the Chairman's mark of the omnibus expense 
resolution. As I also stated earlier, we will instead today 
pass an amendment in the nature of a substitute to the 
resolution introduced by Select Committee on Homeland Security 
authorizing their funding for the 108th Congress.
    Committees of the House requested a total of 252.5 million 
in spending for the 108th Congress. This is a $49 million 
increase over what was authorized in the 107th Congress, and 
represents a 24.1 increase in the amount of moneys that they 
requested. Removing the Homeland Security from the equation, 
the request by committees totaled 241.5 million, a 37.9 million 
increase over the 107th authorized levels, or 18.6 percent 
increase overall for committee funding. Further, the Chairman's 
mark reduces the amount requested by those committees that I 
just stated by 18.8 million, or a 7.8 percent decrease.
    The amendment in the nature of a substitute providing 
expenses for all committees other than the Homeland Security 
authorizes 222.7 million, a 9.4 percent increase. I would note 
that is 9.4 percent, and if you divide that by the 2 years, it 
comes to--my math is not really good, but it comes to around 
4.5, I assume, somewhere near that. Our scientist tells me 4.7 
per year, which is very reasonable and very responsible. This 
is a 19.2 million increase over the 107th Congress at the 
authorized levels.
    It should be noted that the 108th Congress funding level of 
222.7 million excluding Homeland Security is still lower than 
the funding levels in the 103rd Congress in both constant and 
actual dollars. The mark for the 103rd Congress was 223.3 
million. When adjusted for inflation, it amounts to 252.3 
million in 2003 dollars. This means that while 10 years have 
elapsed since the beginning of the 103rd Congress, our funding 
levels are just reaching the levels authorized in that Congress 
on a real-dollar basis because of the drastic cuts that were 
instituted in the 104th Congress, the year I came into the 
Congress. On a constant dollar basis we are significantly under 
the adjusted amount by approximately $29.6 million. I am proud 
of the numbers.
    During the process as well as in the 107th Congress, the 
committee identified two special categories of requests that we 
felt needed to be addressed separately from the regular funding 
process. It is important to ensure that we put forth the most 
accurate reflection of the amounts we are providing to 
committees, and those numbers should not be distorted and 
inflated with other special needs.
    Here, our further requests to upgrade committee rooms and 
requests for disaster recovery equipment. As we did the 
previous session of Congress, we do in a separate measure the 
upgrades. We are attempting to upgrade every hearing room. This 
will allow the public to have more access to the Congress. If 
they are not coming to Washington, D.C., it can be seen over 
the Internet. We have had, in our own House Administration 
Committee, a broadcast of witnesses from Prague who have been 
able to testify on election reform. We are attempting to 
modernize the committee hearing rooms, and it is a process that 
has been going on for quite a few years, but we hope to have it 
done in the near future.
    And also, the second process would be to have disaster 
recovery equipment. In the 107th Congress, we removed hearing 
upgrade requests from the normal committee funding process as 
those costs would have severely distorted the actual amounts it 
takes to run committees, because these are one-time shots that 
should not be included in these committee funding resolutions. 
It was also felt that the hearing room served an institutional 
function, and therefore, upgrades should be paid for out of a 
centralized House fund where appropriate.
    Hearing rooms were in desperate need of refurbishing. Most 
have not seen an upgrade in decades. Having removed the 
upgrades in the process--from the committee funding process, we 
were able to proceed and make significant progress towards 
bringing our hearing rooms to the 21st century standards. While 
we have not finished all of our main and subcommittee hearings 
rooms as yet, we are well on our way to making the proceedings 
of committees more accessible and user-friendly to the general 
public not only across the Nation, but across the world.
    On a different but related note, the 108th Congress has 
seen a substantial but understandable amount of requests from 
committees with regard to disaster recovery equipment directly 
related to the events of September 11 and subsequent biological 
attacks that were directed to the Capitol complex with the 
anthrax. The hearing room upgrades, the protection of committee 
data was thought to serve an institutional function. Therefore, 
the costs for providing a mechanism that gives committees an 
alternative off-site storage site for data in the event of a 
debilitating or catastrophic event should be borne by the House 
and not by the committees individually. Further providing 
enterprise solutions for off-site data storage ensures that a 
common standard will be applied for the equipment purchased and 
used to provide backup storage for committee data.
    As we all know, we have had to undertake and will continue 
to undertake as a committee different ideas and approaches that 
we never thought we would be talking about since 9/11. At one 
point in time when our buildings were shut down, and we could 
not get into the computer equipment--water had leaked down 
through, and some of the equipment was possibly going to be 
compromised--the U.S. House would have been faced with the fact 
that we would not have had access to data. This will allow 
these committees to have basically a backup that will ensure 
that the work of the committees and the U.S. House will still 
be available to the public, as it should be.
    There is no way these committees could pay for this 
individually, for these costs. That is why we will follow up 
with another measure. In response to the situation, the 
committee, in conjunction with the Chief Administrative Officer 
Jay Eagan and the Architect of the Capitol, has already begun 
work on an alternative computing facility, ACF, that will allow 
committees to store their data in a protected off-site facility 
outside of the metro Washington, D.C., area. This facility is 
expected to be completely operational in the mid to later part 
of this year. In the interim, some committees have used funds 
to purchase disaster recovery equipment from previous years' 
funds.
    The House is also offering committees a centrally funded 
option of having data tapes collected by a courier on a weekly 
basis where they are delivered to an alternative site until 
this is fully up and operational so the committees are still 
able to take their data off site as we speak. Committees will 
continue to work with the proper entities in the House and 
consult with other committees to ensure that a secure standard 
enterprise system is instituted that will satisfy the needs of 
the committee.
    I will say in closing, I want to thank the gentleman from 
Connecticut Mr. Larson, also the members of both Minority and 
Majority on the committee. Gentleman had the tough duty to be 
able to sit down and piece a budget. This is not an easy thing 
to do. We took a lot of time with it, deliberated on the 
budgets to make sure that these committees have enough 
effective operating money to carry out the tasks which are 
important to the constituency across the country. I appreciate 
his patience and appreciate the working cooperation. I 
appreciate his tenacity for the Ranking Members and fighting 
for the moneys they need to operate, and also the tenacity that 
Mr. Larson and the Members have had to make sure that the one-
third/two-thirds is intact. We appreciate it. I know the 
Ranking Members appreciate it, and the chairman of the 
committees.
    And with that, I thank all the Members for being here, and 
Mr. Larson.
    Mr. Larson. Thank you very much, Mr. Chairman.
    Let me at the outset ask unanimous consent to revise and 
extend my remarks and submit on behalf of myself and Juanita 
Millender-McDonald and Robert Brady the response of the 
Minority on this committee. And I am sure they will have 
comment as well, but I just want to start by thanking you and 
your staff for the cooperative effort that was put forward to 
ensure that the business of our body gets done. I mean, at the 
end of the day, when you take a look at the various budgets 
that we have put together, they are for the specific purpose, 
as we heard from the various Chairs who came before this 
committee, to continue to do the outreach, to collect the data, 
to go through the public hearing process that enables us to 
come closer to our constituents and perhaps even move outside 
the Beltway in terms of our thinking. If we heard that from 
one, we heard that from several different Chairs.
    And this budget is tight, but it fairly addresses the 
concerns that were put forward by the various committee Chairs. 
As the Chairman has indicated, committee funding obviously was 
uppermost in everyone's minds, and especially as it relates to 
funding of COLAs for people who work here on a day-in-and-day 
out basis, who work extraordinarily hard and oftentimes don't 
get the kind of credit that perhaps their executive branch 
counterparts do in terms of both their work ethic and their 
professionalism and the amount of time they spend working on 
behalf of the citizens of this great country. So I am pleased 
again and can't thank the Chairman enough and his staff for 
understanding those specific work-related concerns of those who 
work on all of our behalf and make our job that much easier.
    The whole issue of homeland security, as the chairman 
indicated again, is an extraordinarily important issue given 
the events of September 11, and one that I believe has been 
handled appropriately and, again, fairly. Your chairmanship and 
your leadership in this area especially in guaranteeing the 
one-third/two-thirds split--and it should be known for the 
record that that wasn't always the case, and it wasn't the case 
when the Democrats were in control. And I think it is even more 
incumbent for a Democratic Ranking Member to acknowledge that 
and to acknowledge the effort that has been made by you and by 
the Speaker. And it was duly noted by Juanita Millender-
McDonald especially, serving on the Small Business Committee as 
well, that you are stepping up and making sure that not only is 
it a one-third/two third split, but the splits are made in such 
a manner that the Minority determines how their money is spent 
as well. That has not gone unrecognized and is duly appreciated 
on behalf of the Ranking Member and all of the Minority, which 
you have so valiantly stood up for in making sure they had an 
equitable means and manner in which to present their concerns 
in the various committees that serve this great body of ours. 
So I want to thank you for that as well.
    I know that we are also voting on the internal operations 
of our franking, and again, I thank you and your staff for the 
work there. I would also like to acknowledge the staff on the 
Minority side who have done a great job working very closely 
with your staff and putting together this document and 
assisting in the amendment.
    Much needs to be done. There are great concerns for more 
outreach and hearings in the aftermath of September 11, the 
current war that is going on, the shuttle disaster, just to 
name a few. So I think the Congress as a body has been well 
served by this budget, and clearly we are asking and 
encouraging Democrats to support this resolution. And you have 
our support and our unending thanks for the quality and 
equitable manner that you have chaired this committee and put 
forward legislation that assists the entire body in a 
bipartisan fashion.
    The Chairman. I thank the gentleman.
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I appreciate all your 
work on this, and both the Ranking Member and yourself, and I 
am very happy that we finally achieved the one-third/two-
thirds. It is high time, and it should have happened long 
before, but because it was so outrageously distorted under the 
previous Majority, there were some very bad feelings that we 
couldn't overcome. But we have done it now; that is all behind 
us.
    I also want to put on the record and hope that the Ranking 
Member will agree with me in this, I don't anticipate the 
Republicans ever losing the Majority.
    Mr. Larson. I might disagree with you there.
    Mr. Ehlers. And it certainly won't happen in the near 
future, and I hope not when I am here. But if it happens 
sometime in the future, I would like to ask Mr. Larson that you 
go on record as supporting continuation of this fair treatment.
    Mr. Larson. If the gentleman will yield, I will absolutely 
go on record stating that and have said so to our leadership 
and to all of our Ranking Members.
    Mr. Ehlers. I thank the Ranking Member, and I appreciate 
that. And since he is likely to be the Speaker if we were to 
lose the Majority, that is a good source to have that 
commitment from.
    With that, I yield back, Mr. Chairman.
    The Chairman. The gentleman from Michigan makes me think 
maybe we should go up a little higher than one-third just in 
case.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman, 
and let me echo the comments and overtures of my friend Mr. 
Ehlers, that the work that you and the Ranking Member have done 
to try to bring a budget to this House that is fair and that is 
reasonable for the committee Chairs and Ranking Members. And, 
Mr. Ehlers, I hate to think you are leaving after the 108th 
Congress, but nonetheless, I do want to echo what the Ranking 
Member has said in terms of your leadership not going unnoticed 
in terms of the one-third/two-thirds and to ensure that the 
Ranking Member on Small Business has the autonomy to use her 
one-third in the fashion that she sees fit. So I applaud you 
for your leadership on that and to ensure that that continues 
to be a practice in this House. And I am just happy to be a 
part of this budget that we are bringing forth today to help 
our colleagues to further the business of the people of this 
great country.
    The Chairman. Thank the gentlelady.
    The gentleman from California.
    Mr. Doolittle. Mr. Chairman, you and the Ranking Member 
ought to be commended for your leadership. It is remarkable to 
the degree of consensus we seem to have on this and will look 
forward to voting to approve it.
    The Chairman. Thank you.
    Mr. Brady.
    Mr. Brady. Just all sorts of thank you for your leadership 
and for the leadership on both sides. And I feel like I am on 
some kind of time warp or something with all this camaraderie 
going on. I wonder if we took a walk across the street, I 
doubt, but it feels good here. So thank you.
    The Chairman. Maybe we can take this feeling to the floor.
    In all seriousness I want to commend the members of this 
committee. This will be the second time I think in decades we 
have had a bipartisan vote, and it says something, I think, for 
all of you and the institution. It is--it is easy to disagree 
on these. And, of course, everybody had different opinions of 
where we would go on this, but having a bipartisan vote to have 
that trend out there on something that could be very difficult. 
I think says a lot for the character and integrity of each and 
every member of this committee. So I want to thank you for 
that.
    The Chair lays before the committee House Resolution 148 
open to amendment. And the Chair offers an amendment in the 
nature of a substitute. Is there any discussion?
    And on--the question is on the amendment in the nature of a 
substitute. Those in favor of the amendment will say aye.
    Those opposed will say nay.
    And with that, the amendment is agreed to.
    Chair recognizes Mr. Ehlers for the purpose of offering a 
motion.
    Mr. Ehlers. Mr. Chairman, I move that the committee order 
House Resolution 148 as amended reported favorably to the House 
of Representatives.
    The Chairman. Question is on the motion. Those in favor of 
the motion will say aye.
    Those opposed will say nay.
    The motion is agreed to, and the committee orders that 
House Resolution 148 be reported favorably, as amended, to the 
House of Representatives.
    The Chair lays before the committee House Resolution 110 
open to amendment, and the Chair offers an amendment in the 
nature of a substitute. Is there any discussion?
    Question is on the amendment in the nature of a substitute. 
Those in favor of the amendment will say aye.
    Those opposed will say nay.
    Amendment is agreed to.
    Chair recognizes Mr. Ehlers for the purpose of offering a 
motion.
    Mr. Ehlers. Mr. Chairman, I move that the committee order 
House Resolution 110, as amended, reported favorably to the 
House of Representatives.
    The Chairman. The question is on the motion. Those in favor 
of the motion will say aye.
    Those opposed will say nay.
    The motion is agreed to, and the committee orders that 
House Resolution 110 be reported favorably, as amended, to the 
House of Representatives.
    The Chair leaves before the committee a committee 
resolution establishing the 108th Congress frank mail 
allocation for committees, and I think the Members have that 
allocation. Is there discussion?
    The Chair recognizes Mr. Ehlers.
    Mr. Ehlers. Mr. Chairman, I don't have any discussion on 
this motion per se, but I want to just mention an issue that 
has troubled me, and I hope you and the other members of the 
committee will join in addressing it, and that is with the 
advent of e-mail, we are applying the same franking regulations 
basically to e-mail as we have always applied to snail mail. 
And I think it is just inappropriate, and we have to as a 
committee rethink that.
    And I am raising that issue even though it doesn't pertain 
directly to this resolution because I think the committee 
should start thinking about how we could adapt the franking 
regulations to better fit with e-mail, which is a totally 
different situation. And we send it out at basically no cost to 
the taxpayers. I believe it is simply inappropriate to treat 
the two the same way, and I hope members of the committee will 
begin thinking about that and we can have some discussion about 
that.
    Mr. Larson. Will the gentleman yield?
    Mr. Ehlers. Yes.
    Mr. Larson. I couldn't agree more with the gentleman, and I 
think it is a salient point. And having said that, Mr. 
Chairman----
    The Chairman. If the gentleman could yield, I wanted to say 
something on this. Last year this issue was raised. At the time 
the issue was raised after a Democrat primary had occurred. And 
I can't remember which State it was, but a Democrat primary had 
occurred. At that time I communicated with Minority Members 
because once the Democrat primary had occurred, if this had 
changed or had it been subject to change, we would have changed 
the rules after a primary. Whether it was a Democrat or 
Republican, it would have been irrelevant, but we would have 
changed the rules. And that Member in that primary could have 
rightfully said, I could have used this. So we let it sit as a 
result; actually about a week ago have started to look at it, 
and we are working on it to the point we will come to the 
gentleman from Connecticut.
    So we are trying to get to that point to analyze it, but 
that is why I wanted to tell you the history of this. Once the 
one primary occurred, to change the rules after that would have 
been unfair to that Member.
    Mr. Ehlers. Mr. Chairman, that is why I am raising it now. 
I have a weekly e newsletter, and I am amazed of how many 
citizens ask me, why don't I get that newsletter anymore. And 
it is very factual and no propaganda of any sort, no 
partisanship, just to simply report on what happened. And our 
citizens are deprived of that news, which we send out at no 
cost to us. It doesn't help us in our campaigns, and it is 
simply inappropriate to apply that standard to something like 
that.
    The Chairman. The Chair recognizes Mr. Ehlers for the 
purpose of offering a motion.
    Mr. Ehlers. Mr. Chairman, I move the committee resolution 
establishing the 108th Congress frank mail allocation for 
committees be adopted.
    The Chairman. Question is on the motion. Those in favor of 
the motion will say aye.
    Those opposed will say nay.
    The motion is agreed to, and the committee resolution 
establishing the 108th Congress frank mail allocation for 
committees is adopted.
    I ask unanimous consent that Members have 7 legislative 
days for statements and materials to be entered in the 
appropriate place in the record. Without objection, the 
material will be so added.
    I ask unanimous consent the staff be authorized to make 
technical and conforming changes on all matters considered by 
the committee at today's meeting. Without objection, so 
ordered.
    And having completed our business for today, the committee 
is hereby adjourned, and I want to thank the Members.
    [Whereupon, at 5:30 p.m., the committee was adjourned.]

</pre></body></html>
